1
Recommendations A4, A6, and B1 “resolved but not implemented” and referred them to
PFM for tracking of implementation. We considered Recommendations A1 and A2
“unresolved” and referred them to PFM for resolution. These two recommendations were
subsequently considered resolved by Assistant Secretary, Policy, Management and Budget
(PMB) in August 1999. At that time, we agreed with PMB that implementation of
Recommendation A1 was not warranted and the recommendation was closed without
implementation. Therefore, we did not follow up on Recommendation A1 during this
review. In April 2006, we received a memorandum from PFM stating that the five
recommendations (A1, A2, A4, A6 and B1) referred to PFM were closed.

Scope and Methodology

        The scope of our review was limited to determining whether BLM implemented the
recommendations as reported. To accomplish our objective, we reviewed the supporting
documentation that BLM submitted to close the recommendations. We also interviewed
and requested information from BLM personnel. We did not perform site visits or conduct
detailed fieldwork to determine whether the underlying deficiencies identified in the
original audit report have been corrected.

       This review was not conducted in accordance with the Government Auditing
Standards issued by the Comptroller General of the United States.

Conclusion

       At the exit conference on June 21, 2006, we informed BLM officials that we
concluded that Recommendations A3, A4, A5, A6, and B1 were implemented and that
Recommendation A2 was not implemented as reported.

        Recommendation A2 stated that BLM should identify the mineral patent process as
a discrete process with a material risk factor and subject it to the requirements of Circular
A-123. We found no evidence that BLM either established the mineral patent process as a
discrete process or subjected it to the requirements of Circular A-123. BLM subsequently
provided additional documentation to support that it had implemented the recommendation
and that the recommendation was no longer necessary due to the current status of the
program.

       After reviewing the additional documentation, we continue to conclude that the
recommendation was not implemented. However, we agree with BLM that the
recommendation is no longer warranted because 1) a moratorium on new mineral patents
enacted by Congress in FY1995 is still in effect, 2) BLM reported that the number of
mineral patent applications pending approval had been significantly reduced, and 3) PMB
reported that applications had not been remanded for mineral issues for a 2 year period.
Based on these facts, we consider Recommendation A2 to be “closed, not implemented.”




                                              2
Responding to the Report

        Because we consider all the recommendations to be closed, a response to this report
is not necessary.

If you have any questions regarding this report, please call me at 303-236-9243.



cc:    Audit Liaison Officer, Department of the Interior
       Audit Liaison Officer, Assistant Secretary for Land and Minerals Management
       Audit Liaison Officer, Bureau of Land Management
       Focus Leader for Management Control and Audit Follow-up
       Deputy Division Chief, Solid Minerals




                                             3
                                                              Appendix 1


   STATUS OF PRIOR AUDIT REPORT RECOMMENDATIONS

  Recommendation            Status              Action Required


A3, A4, A5, A6, and B1   Implemented      No further action is required.

         A2              Closed but Not   No further action is required.
                          Implemented




                                4
                                                                              Appendix 2

                  RESULTS OF VERIFICATION REVIEW
Recommendation A2: “Identify the mineral patent process as a discrete process with
a material risk factor and subject it to the requirements of Circular A-123.”

      In its response to the final audit report, BLM disagreed with this recommendation.
      On June 18, 1998, we referred this recommendation to PFM for resolution. In
      August 1999, the Assistant Secretary, PMB issued a memorandum stating that BLM
      should identify the mineral patent process as a separate and distinct assessable unit
      in its Management Control Program and should establish the priority, time frame
      and scope for reviewing and assessing the management controls in accordance with
      Circular A-123. In the memorandum, the Assistant Secretary considered
      Recommendation A2 resolved and implemented.

      PFM and BLM could not provide us with documentation to verify that BLM either
      implemented Recommendation A2 or addressed the actions identified in the
      Assistant Secretary’s memorandum. We held an exit conference in June 2006 to
      discuss our preliminary results and conclusions with BLM and PFM. Subsequently,
      BLM provided additional information to support its claims that 1) BLM had
      implemented the recommendation and 2) the recommendation was no longer
      warranted due to the status of the program.

      BLM provided its FY 2004 Circular A-123 assessment of the Mining Law
      Administration, Surface Management Program. This assessment focused on the
      implementation of surface management regulations (43 CFR 3809) and use and
      occupancy mining law regulations (43 CFR 3715) and not the mineral patent
      regulations covered in 43 CFR 3860. BLM also provided documentation on a work
      load analysis of the Mining Law Administration Program; a use authorization
      review of solid minerals which included the mineral patent program; and an
      assessment of Mining Law Administration in Alaska. None of this documentation
      supported that BLM had set up the mineral patent process as a discrete assessable
      unit or had established a priority, time frame and scope for reviewing and assessing
      the management controls of the mineral patent process in accordance with Circular
      A-123. We continue to conclude that BLM did not implement the recommendation.

      Congress passed legislation requiring a moratorium on processing mineral patents
      in Fiscal Year 1995. As of September 2006, this moratorium has been in effect for
      11 years. BLM reported that the number of patents to be processed had decreased
      from 405 to 43. PMB reported that no applications had been remanded for mineral
      report issues for a 2 year period. Based on these factors, we agree with BLM that
      Recommendation A2 is no longer warranted and conclude that the recommendation
      should be considered “closed – not implemented.”




                                            5
Recommendation A3: “Issue the new Bureau handbook in draft for comment and
identify and develop improvements needed for final issuance of the handbook.”

       On October 8, 2003, BLM issued its final updated Handbook H-3890-3 "Validity
       Mineral Reports." We consider Recommendation A3 implemented.

Recommendation A4: “Develop standardized procedures for documenting reviews of
mineral examinations which allow for independent review and verification of the
sufficiency of the mineral validity examination and the mineral report.”

       On October 8, 2003, BLM issued its final updated Handbook H-3890-3 “Validity
       Mineral Reports.” The Handbook includes detailed steps for documenting reviews
       of mineral examinations, reviews of the work completed, and the resulting report.
       We consider Recommendation A4 implemented.

Recommendation A5: “Develop pass/fail testing procedures for Mineral Examiner
training to provide greater assurance that Mineral Examiners are sufficiently
qualified to conduct mineral validity examinations.”

       BLM, through its National Training Center, instituted a binding pass-fail system for
       its certification courses. We consider Recommendation A5 implemented.

Recommendation A6: “Develop continuing education requirements for Certified
Mineral Examiners and a compliance monitoring system for continuing education for
both Certified Mineral Examiners and Certified Review Mineral Examiners.”

       BLM updated its Manual Section 3895 "Certification of Mineral Examiners" to
       include continuing education requirements for Certified Mineral Examiners and
       Certified Review Mineral Examiners. These certifications are monitored by the
       Certification Panel and the Panel’s Executive Secretary. We consider
       Recommendation A6 implemented.

Recommendation B1: “Obtain a Solicitor's opinion to determine whether the Bureau
has authority to recover its costs of conducting mineral examinations from applicants
for patents. If it is determined that the Bureau can recover such costs, the costs of
conducting mineral examinations should be recovered in accordance with Office of
Management and Budget Circular A-25.”

       BLM obtained a Solicitor’s opinion, “BLM’s Authority to Recover Costs of
       Minerals Document Processing" (M-36987, December 5, 1998). The opinion stated
       that mineral patent applications are subject to full cost recovery procedures under
       the authority of the Federal Land Policy and Management Act of 1976, as amended.
       As a result of the Solicitor’s opinion, BLM issued a final cost recovery rule (70 FR
       58854) effective November 7, 2005 imposing fees to cover BLM’s costs.
       Accordingly, we considered Recommendation B1 implemented.




                                            6
